                                                                                            Offce of Inspector General

                                                                                           u.s. Department of Homeland Security
                                                                                           Centrl Regional Offce

                                                                                           Offce of Emergency Management Oversight
                                                                                           3900 Karina Street, Room 224
                                                                                           Denton, Texas 76208



                                                                                          Homeland
                                                                                          Security
                                                              March 25,2009


MEMORANDUM FOR: Art Freeman, Acting Regional Administrator
                                       ~FEMA:¡¡cL
FROM: tp To L. Hadley, Director
                                                Cen Regional Office

SUBJECT:	                                       City of Wichita, Kansas
                                               FEMA Disaster Number 1579-DR-KS
                                               Public Assistance Identification Number 173-79000-00
                                               Audit Report Number DD-09-05

                                                          Wichita, Kansas (City). Our audit
We audited public assistance funds awarded to the City of 


objective was to determine whether the City accounted for and expended Federal Emergency
Management Agency (FEMA) funds according to federal regulations and FEMA guidelines.

The City received an award of $6.67 milion from the Kansas Division of Emergency Management
(KDEM), a FEMA grantee, for damages caused by a severe winter storm, heavy rains, and flooding
that occurred January 4 - 6,2005. The award provided 75% FEMA funding for 12large and 8 small
projects. i We audited six large and one small project under the award totaling $4.9 milion or 73%
of total grant expenditures (see Exhibit). The audit covered the period January 4,2005, to
January 10, 2006, during which the City claimed, and KDEM disbursed, $6.67 milion for direct
program costs.

We conducted this performance audit under the authority ofthe Inspector General Act of 1978, as
amended, and according to generally accepted governent auditing standards. Those standards
require that we plan and perform the audit to obtain suffcient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objective.

Our audit methodology consisted of 
                      reviewing the City's compliance with federal procurement
standards for $3.32 millon of debris removal contracts; reviewing judgmentally selected samples
(generally based on dollar values) of 
                    the City's claimed costs; conducting interviews ofFEMA,
KDEM, and City officials; and performing other auditing procedures we considered necessary to
accomplish the audit objective. We did not assess the adequacy of 
                      the City's internal controls
i Federal regulations in effect at the time of the disaster set the large project threshold at $55,500.
applicable to its grant activities because it was not necessary to accomplish our audit objective. We
did, however, gain an understanding ofthe City's grant accounting system for disaster-related costs.


                                       RESULTS OF AUDIT

The City accounted for and expended FEMA funds according to federal regulations and FEMA
guidelines. The City's debris removal procurement procedures and contract fie maintenance were
exemplar; and the City's contract administration system ensured contractors performed according
to contract terms, conditions, and specifications.


                             DISCUSSION WITH MANAGEMENT

We discussed the audit results with FEMA, KDEM, and City officials on February 26,2009. These
officials agreed with the audit results. Because the audit did not identify issues requiring further
action from FEMA, we consider this audit closed. Should you have questions concerning this report,
please contact me or Paige Hamrck, Audit Manager, at (940) 891-8900.

cc: Audit Liaison, FEMA (Job Code DG8C15)

       Audit Liaison, FEMA Region VII




                                                  2

                                   EXHIBIT



   Schedule of Audited Projects

     City of Wichita, Kansas

FEMA Disaster Number 1579-DR-KS




  Project
   A ward/Claim
  Number
          Amount
      3            $ 656,678

     7              1,835,802
     18               784,002
     497               98,064
     607              407,216
     608            1,077,054
     614               39.380
    Total          $4.898.196




               3
